Case: 20-1804

Document: 24-1

Page: 1

Date Filed: 03/19/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1804
DANIEL J. HEFFLEY,
Appellant
v.

COMMONWEALTH OF PENNSYLVANIA; SUPREME COURT OF
PENNSYLVANIA; JUDICIAL CONDUCT BOARD OF PENNSYLVANIA;
COURT OF COMMON PLEAS OF ALLEGHENY COUNTY
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2:18-cv-01150)
District Judge: Honorable Mark R. Homak
Submitted Pursuant to Third Circuit LAR 34.1(a)
January 4, 2021
Before: MCKEE, SHWARTZ, and RESTREPO, Circuit Judges
JUDGMENT
This cause came to be considered on the record from the United States District
Court for the Western District of Pennsylvania and was submitted pursuant to Third
Circuit LAR 34.1(a) on January 4, 2021. On consideration whereof, it is now hereby

Appendix A.

1 of 7

Case: 20-1804

Document: 24-1

Page: 2

Date Filed: 03/19/2021

ORDERED and ADJUDGED by this Court that the judgment of the District Court.
entered January 9, 2020, be and the same is hereby affirmed. Costs taxed against the
appellant. All of the above in accordance with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: February 10, 2021

co

V>*'

Certified^
y*$nd issued in lieu
*
.vc*
of a forriu^Tiiaftf|ate£& 3/19/2021
Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

2 of 7

Case: 20-1804

Document: 24-2

Page: 1

Date Filed: 03/19/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1804
DANIEL J. HEFFLEY,
Appellant
v.
COMMONWEALTH OF PENNSYLVANIA; SUPREME COURT OF
PENNSYLVANIA; JUDICIAL CONDUCT BOARD OF PENNSYLVANIA;
COURT OF COMMON PLEAS OF ALLEGHENY COUNTY
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2:18-cv-01150)
District Judge: Honorable Mark R. Homak
Submitted Pursuant to Third Circuit LAR 34.1(a)
January 4, 2021
Before: MCKEE, SHWARTZ, and RESTREPO, Circuit Judges
(Opinion filed February 10, 2021)
OPINION*
PER CURIAM

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not constitute binding
precedent.

3 Of 7

Case: 20-1804

Document: 24-2

Page: 2

Date Filed: 03/19/2021

Pro se appellant Daniel Heffley appeals after the District Court dismissed his in
forma pauperis lawsuit alleging, among other things, violations of the Americans with
Disabilities Act (“ADA”) and Section 504 of the Rehabilitation Act of 1973 (“Section
504”).1 For the reasons detailed below, we will affirm.
On August 29, 2018, Heffley initiated this action against the Commonwealth of
Pennsylvania, the Supreme Court of Pennsylvania, the Judicial Conduct Board of
Pennsylvania, and the Allegheny County Court of Common Pleas. In pertinent part, he
claimed that that six actions taken during his child custody proceedings in state court
violated the ADA and Section 504. The District Court subsequently granted the
defendants’ motion to dismiss, concluding that the claims relating to the six actions were
untimely under the applicable statute of limitations.2
We have jurisdiction under 28 U.S.C. § 1291 and exercise plenary review over the
District Court’s decision to grant a motion to dismiss on statute of limitations grounds.
See Algrant v. Evergreen Valiev Nurseries Ltd. P’ship. 126F.3d 178, 181 (3dCir. 1997).

1 Heffley brought several constitutional claims under 42 U.S.C. § 1983 as well, but the District Court
dismissed these claims sua sponte on screening the complaint pursuant to 28 U.S.C. § 1915(e), and
Heffley did not challenge that order in his brief. Accordingly, Heffley has forfeited any challenge to the
dismissal of those claims. See M.S. by & through Hall v. Susquehanna Two. Sch. Dist.. 969 F.3d 120,124
n.2 (3d Cir. 2020).
2 Heffley also brought claims for violations of the ADA and Section 504, based on a seventh event, which
the District Court concluded were timely, but meritless. Heffley has forfeited any challenge to the
dismissal on the merits of these claim by failing to raise them in his brief. See M.S. by & through Hall.
969 F.3d at 124 n.2.
2

4 of 7

Case: 20-1804

Document: 24-2

Page: 3

Date Filed: 03/19/2021

^Fhe-BistTiet-GourtTnay grant such a motion when the time-bar is apparent on the face of
the complaint. See Schmidt v. Skolas. 770 F.3d 241. 249 (3d Cir. 2014). In addition to
considering the allegations in the complaint, courts may consider exhibits submitted with
the complaint and matters of public record. Id.
The District Court did not err in concluding that Heffley’s ADA and Section 504
claims were untimely. These claims are subject to Pennsylvania’s two-year statute of
limitations on personal injury actions. See Disabled in Action of Pa. v. Se. Pa. Transp.
Auth., 539 F.3d 199, 208 (3d Cir. 2008). The statute of limitations does not begin to run
until the plaintiff discovers, or should have discovered, that he has been injured and that
another party’s conduct caused his injury. Id at 214, 216.
As accurately detailed by the District Court, it is clear from the complaint and
attached exhibits that the ADA and Section 504 claims were based on events that
occurred and were discoverable by Heffley before August 29, 2016 (the limitations date).
Some of the events took place while Heffley was present in court, and Heffley discussed
most of the events in documents he filed before the limitations date in state court and
other fora. Heffley asserts that he, by virtue of his disabilities, could not have reasonably
known of the alleged wrongs. However, “[t]he determination of the time at which a
claim accrues is an objective inquiry; we ask not what the plaintiff actually knew but
what a reasonable person should have known.” Kach v. Hose. 589 F.3d 626, 634 (3d Cir.
2009) (citation omitted). The allegations and exhibits indicate strongly that Heffley
3

5 of 7

Case: 20-1804

Document: 24-2

Page: 4

Date Filed: 03/19/2021

1iimse4#-knew-of-them_befoTe‘tiTe'limitations date. Regardless, it is clear that a reasonable
plaintiff should have known of the alleged injuries before the limitations date.
Furthermore, the District Court did not err in concluding that there was no basis
for tolling the statute of limitations. To the extent that Heffley’s brief can be read as
challenging the District Court’s rejection of his continuing violations theory for tolling,
his argument fails because the claims arose from isolated, distinct events. See Cowell v.
Palmer Twp.. 263 F.3d 286,292 (3d Cir. 2001) (explaining that “when a defendant’s
conduct is part of a continuing practice, an action is timely so long as the last act
evidencing the continuing practice falls within the limitations period”).
Accordingly, we will affirm the judgment of the District Court. Heffley’s motion
for leave to file supplemental appendix with reply brief and his supplemental motion for
leave to submit an additional response are both granted.

4

6 of 7

Case: 20-1804

Document: 24-3

Page: 1

Date Filed: 03/19/2021

PATRICIA S. DODSZUWEIT
CLERK

TELPHONE N_0_,
215-597-2995
OFFICE OF THE CLERK
UNITED STATES COURT OF APPEALS
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790
Website: www.ca3.uscourts.gov

March 19, 2021
Mr. Joshua Lewis
United States District Court for the Western District of Pennsylvania
Joseph F. Weis Jr. United States Courthouse
700 Grant Street
Pittsburgh, PA 15219

RE: Daniel Heffley v. Commonwealth of Pennsylvania, et al
Case Number: 20-1804
District Court Case Number: 2-18-cv-Ol 150
Dear Mr. Lewis:
Enclosed herewith is the certified judgment together with copy of the opinion in the
above-captioned case. The certified judgment is issued in lieu of a formal mandate and is
to be treated in all respects as a mandate.
Counsel are advised of the issuance of the mandate by copy of this letter. The certified
judgment is also enclosed showing costs taxed, if any.
Very Truly Yours,
s/ Patricia S. Dodszuweit
Clerk
By: s/ Desiree,
Case Manager
267-299-4252
cc:

Megan L Davis, Esq.
Daniel J. Heffley

7 of 7

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 1 of 20

IN THE UNITED STATES DISTRLCIjCOURI----FOR THE WESTERN DISTRICT OF PENNSYLVANIA
DANIEL J. HEFFLEY,
Plaintiff,
v.

COMMONWEALTH OF
PENNSYLVANIA; SUPREME
COURT OF PENNSYLVANIA;
JUDICIAL CONDUCT BOARD
OF PENNSYLVANIA; and
COURT OF COMMON PLEAS
OF ALLEGHENY COUNTY
Defendants.

)
)
)
)
)
)

)

2:18-cv-01150

)
)
)
)
)
)
)
)

OPINION
Mark R. Hornak, Chief United States District Judge
Daniel Heffley (“Plaintiff’) and his now ex-wife engaged in a lengthy courtroom dispute
before Judge Cathleen Bubash in the Family Division of the Court of Common Pleas of Allegheny
County, Pennsylvania (“Family Court”). Disagreeing with both the process and result of the
Family Court proceedings, Plaintiff filed a trio of lawsuits; this action is the still-remaining one of
the three.1 Here, the named defendants are the Commonwealth of Pennsylvania, Supreme Court of
Pennsylvania, Judicial Conduct Board of Pennsylvania, and the Court of Common Pleas of
Allegheny County (collectively, “Defendants”), all of whom, at least according to Plaintiff, played
a role in the Family Court proceedings.

1 In the first action, Plaintiff sued Judge Bubash. This Court dismissed that lawsuit and the Third Circuit affirmed. See
Heffley v. Bubash, 764 F. App’x 219 (3d Cir. 2019) (per curiam). In the second action, Plaintiff sued his ex-wife, exsister-in-law, ex-father-in-law, his guardian ad litem, as well as many of the lawyers, therapists, and psychologists
involved in the Family Court proceedings. The Court similarly dismissed that action. As of this writing, Plaintiff’s
appeal is pending before the Third Circuit. See Heffley v. Steele, No. 2:17-CV-01624,2019 WL 5092127, at *1 (W.D.
Pa! Oct. 11,2019), appeal docketed, No. 19-3446 (3d Cir. Oct. 24,2019).

1
Appendix B

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 2 of 20

Plaintiff s Complaint asserted many claims under many legal theories. But the only viable
claims were those asserted under Title II of the Americans with Disabilities Act (“ADA”) and
§ 504 of the Rehabilitation Act (“RA”). Boiled down, Plaintiffs Complaint points to seven (7)
incidents that he contends give rise to ADA and RA claims. Defendants moved to dismiss
Plaintiffs Complaint on several grounds, including that Plaintiffs claims are barred by the
applicable two-year statute of limitations. The Court concludes that Plaintiffs first six (6)
purported ADA and RA claims are indeed barred by the statute of limitations. Plaintiffs seventh
claim falls within the statute of limitations window, but fails to state a claim under either the ADA
or RA. And the Court concludes that leave to amend this timely but baseless allegation would be
futile. Because all of Plaintiff s viable claims accrued more than two (2) years before he began this
action, his Complaint is dismissed in its entirety with prejudice.

I.

BACKGROUND
The allegations and circumstances surrounding Plaintiffs underlying Family Court dispute

with his former spouse are largely irrelevant to the Court’s task today. Therefore, the Court will
refrain from a full recounting of those proceedings.2 Plaintiff began his case in this Court on
August 29, 2018, by filing a Motion for Leave to Proceed in forma pauperis to which he attached
his “Proposed Complaint.” (ECF Nos. 1 and 1-1.) The Court screened Plaintiffs Proposed
Complaint under 28 U.S.C. § 1915(e) and concluded that all of Plaintiff s claims, other than those
asserted under Title II of the ADA and § 504 of the RA, failed as a matter of law. (Order, ECF No.
3.) As a result, the Court dismissed all of the non-ADA and RA claims with prejudice. (Id.) The

2 The Court will, of course, reference the Family Court events (as alleged in Plaintiffs Complaint) as needed to
determine the dates when certain events took place for purposes of the Court’s statute of limitations inquiry. Any such
discussion, however, will occur in the Court’s incident-by-incident analysis conducted below. See infra Part III.A.

2

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 3 of 20

Court then granted Plaintiff in forma pauperis status and permittedJiim. to file his Complaint
alleging only the ADA and RA claims. (Id.)
Plaintiff filed his Complaint on March 11, 2019.3 (Compl., ECF No. 12.) Defendants, all
represented by the same counsel, moved to dismiss Plaintiffs Complaint. (Mot. to Dismiss, ECF
No. 20; Br. in Support, ECF No. 21.) Plaintiff responded and later supplemented that response.
(Resp., ECF No. 22; Notice, ECF No. 26.) Defendants replied. (Resp., ECF No. 23.) Then Plaintiff
replied, twice. (Reply, ECF No. 27; Reply, ECF No. 28.) With briefing complete, and then some,4
the Court will decide Defendants’ Motion to Dismiss.
II.

LEGAL STANDARD
A claim may be dismissed for “failure to state a claim upon which relief can be granted.”

Fed. R. Civ. P. 12(b)(6). The Supreme Court’s decision in Ashcroft v. Iqbal held that “[tjhreadbare
recitals of the elements of a cause of action, supported by mere conclusory statements” are not
enough to survive a Rule 12(b)(6) motion. 556 U.S. 662, 678 (2009) (citing Bell Atl. Corp. v.
Twombly, 550 U.S. 544,555 (2007)). Instead, to survive a motion to dismiss, the plaintiffs factual
allegations must “raise a right to relief above the speculative level” and state a plausible claim for
relief. Twombly, 550 U.S. at 555. This plausibility standard “is not akin to a ‘probability
requirement,’ but it asks for more than the sheer possibility that a defendant has acted unlawfully.”
Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at 556).

3 Plaintiffs Complaint did not appear on the docket until July 16, 2019. The delay between Plaintiffs Motion to
Proceed in forma pauperis his Complaint appearing on the docket stemmed from a minor clerical error. (Notice and
Order, ECF No. 8.) The Court, therefore, treated the Complaint itself as filed on March 11,2019—the date when the
Court approved Plaintiffs Motion to Proceed in forma pauperis. (Compl., ECF No. 12.) That delay, however, does
not change the Court’s statute of limitations inquiry because the Court uses the earliest relevant date, that of the filing
of the in forma pauperis motion—August 29, 2018—for statute of limitations purposes. See infra note 5. The Court
notes the clerical delay simply to explain why there was a significant gap between Plaintiffs Complaint actually being
filed on July 16,2019, and Defendants moving to dismiss on August 19,2019. (Mot. to Dismiss, ECF No. 20.)
4 Throughout the briefing process, Plaintiff filed several notices and other documents with the Court. (ECF Nos. 15,
16,29, and 30.) The Court has considered all of Plaintiff s filings to the extent appropriate.

3

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 4 of 20

Dur Court of Appeals has broken the labal and rwom6/iu?leading.-standard-4nto-a three*
part framework. First, the Court “identifies] the elements of the claim.” Malleus v. George, 641
F.3d 560, 563 (3d Cir. 2011). Next, the Court “review[s] the complaint to strike conclusory
allegations.” Id. Finally, the Court “look[s] at the well-pleaded components of the complaint and
evaluates] whether all of the elements identified in part one of the inquiiy are sufficiently alleged.”
Id. Along the same lines, the Third Circuit has held that the complaint must “show” that the
plaintiff is entitled to relief based on the facts that the Court must presume as true. See Fowler v.
UPMC Shadyside, 578 F.3d 203, 210-11 (3d Cir. 2009). The Court’s “plausibility” analysis is a
“context-specific task that requires the reviewing court to draw on its judicial experience and
common sense.” Iqbal, 556 U.S. at 679.
In our Circuit—under the aptly-named “Third Circuit Rule”—Defendants may raise a
statute of limitations defense in a motion to dismiss made under Federal Rule of Civil Procedure
12(b)(6). Robinson v. Johnson, 313 F.3d 128, 134-35 (3d Cir. 2002); see also Guerrero v.
Bensalem Racing Ass’n, Inc., 25 F. Supp. 3d 573, 581 (E.D. Pa. 2014) (“When determining
whether a claim is plausible, a district court may also consider any affirmative defenses raised by
the moving party.”). Defendants may raise a limitations defense under the Third Circuit Rule “only
if‘the time alleged in the statement of a claim shows that the cause of action has not been brought
within the statute of limitations.’” .floZjwsow, 313 F.3d at 134-35 (quoting Hanna v. U.S. Veterans’
Admin. Hosp., 514 F.2d 1092, 1094 (3d Cir. 1975)). The limitations bar must be “apparent on the
face of the complaint,” otherwise the Defendant cannot invoke the Third Circuit Rule to seek to
dismiss the Complaint. Id. (quoting Bethel v. Jendoco Constr. Corp., 570 F.2d 1168,1174 (3d Cir.
1978)).

4

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 5 of 20

In applying the Third Circuit Rule, the Court may only consider three (3) sources of
information: (1) the allegations in the Complaint; (2) exhibits attached to the Complaint; and (3)
matters of public record. See Schmidt v. Skolas, 770 F.3d 241, 249 (3d Cir. 2014) (citing Pension
Benefit Guar. Corp. v. White Consol. Indus., Inc., 998 F.2d 1192, 1196 (3d Cir. 1993)). If those
sources that the Court may consider fail to show when the limitations period started running, then
the Court cannot dismiss the Complaint under the Third Circuit Rule. See Stephens v. Clash, 796
F.3d 281,289 (3d Cir. 2015).
III.

DISCUSSION
In their brief in support of their Motion to Dismiss, Defendants raise six (6) bases for the

Court to dismiss Plaintiffs Complaint—some providing a basis to dismiss the Complaint entirely,
others providing a basis to dismiss it in part. (ECF No. 21, at 5-6.) First, Defendants argue that
Plaintiffs claims under Title II of the ADA and § 504 of the RA are barred by the applicable
statute of limitations. {Id. at 5.) Second, they assert that Plaintiff s Complaint should be dismissed
because, in their estimation, the named defendants had nothing to do with Judge Bubash’s
decisionmaking during the Family Court dispute. {Id. at 6.) Third, Defendants assert that Plaintiffs
claims against the Judicial Conduct Board should be dismissed for lack of standing. {Id.) Fourth,
Defendants seek to dismiss Plaintiffs Complaint under Rule 12(b)(6). (Id) Fifth, Defendants seek
to strike and dismiss Plaintiff s request for punitive damages. {Id.) Finally, Defendants seek to
dismiss Plaintiffs request for compensatory damages. {Id.)
Plaintiff, in response to Defendants’ Motion, filed a point-by-point rebuttal of Defendants’
arguments for dismissal of his Complaint. That response, however, did nothing to convince the
Court that his Complaint should go forward. The Court concludes that Plaintiffs claims under
Title II of the ADA and § 504 of the RA are barred by the applicable statute of limitations. Because

5

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 6 of 20

the Court reaches this conclusion—guided by Circuit precedent and its interpretation of the
relevant statutes—the Court need not undertake a discussion of Defendants’ many other proposed
bases for dismissal.
The Court’s discussion of Defendants’ Motion to Dismiss on statute of limitations grounds
proceeds in two (2) parts. First, the Court applies binding Third Circuit law governing the statute
of limitations for Title II ADA and § 504 RA claims to Plaintiffs Complaint. Second, the Court
addresses Plaintiffs arguments that the Court should apply the “continuing violations” doctrine to
his ADA and RA claims.
A. Statute of Limitations—Title II of the ADA and § 504 of the RA
Title II of the ADA commands that “no qualified individual with a disability shall, by
reason of such disability, be excluded from participation in or be denied the benefits of the services,
programs, or activities of a public entity, or be subjected to discrimination by any such entity.” See
42 U.S.C. § 12132. Along the same lines, § 504 of the RA provides that “[n]o otherwise qualified
individual with a disability in the United States ... shall, solely by reason of her or his disability,
be excluded from the participation in, be denied the benefits of, or be subjected to discrimination
under any program or activity receiving Federal financial assistance.” 29 U.S.C. § 794(a).
Neither Title II of the ADA nor § 504 of the RA provides an explicit statute of limitations.
Our Court of Appeals, however, has held that “the statute of limitations applicable to claims under
Title II of the ADA and Section 504 of the RA is the statute of limitations for personal injury
actions in the state in which the trial court sits.” Disabled in Action ofPa. v. SEPTA, 539 F.3d 199,
208 (3d Cir. 2008). In Pennsylvania, the applicable statute imposes a two-year limitation on
bringing claims under both the ADA and RA. See 42 Pa. Cons. Stat. § 5524; Disabled in Action,
539 F.3d at 208.

6

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 7 of 20

As for when the two-year clock starts ticking, courts should examine the statute for an
“explicit command” or “implication from the structure or text of the statute” as to when a claim
accrues. TRW Inc. v. Andrews, 534 U.S. 19, 27-28 (2001). Unless there is a “contrary directive
from Congress,” courts should apply the federal “discovery rule.” Disabled in Action, 539 F.3d at
209 (quoting Romero v. Allstate Corp., 404 F.3d 212,221 (3d Cir. 2005)) (internal quotation marks
omitted). The “federal discovery rule” provides that “a federal cause of action accrues when the
plaintiff discovers, or with due diligence should have discovered, the injury that forms the basis
for the claim.” Id. (citing Romero, 404 F.3d at 222) (internal quotation marks omitted).
The Third Circuit explained in Disabled in Action that the Court’s “discovery rule” inquiry
should involve two (2) analytically distinct steps. First, the Court should identify when the
“discriminatory act defined by the statute actually occurred.” Id. at 214 (citing Podobnik v. U.S.
Postal Serv., 409 F.3d 584 590 (3d Cir. 2005)). Second, the Court should “determine whether that
injury was immediately discoverable, or whether the accrual date will be postponed until it is
reasonable to expect the plaintiff to discover the injury.” Id. (citing Oshiver v. Levin, Fishbein,
Sedran & Berman, 38 F.3d 1380, 1386 (3d Cir. 1994)). Under this framework, the accrual date
cannot precede the date of the actual injury. In other words, the “discovery rule” can only delay
accrual; it can never accelerate accrual. See id.
The Court’s task today involves both of the “rules” discussed above: the “Third Circuit
Rule” and the “discovery rule.” Defendants seek to dismiss Plaintiffs ADA and RA claims under
the Third Circuit Rule—i.e., Defendants move to dismiss the claims under Rule 12(b)(6) as barred
by the applicable two-year statute of limitations. To determine whether Defendants’ Motion is
meritorious, the Court must apply the “discovery rule” to identify when Plaintiffs alleged ADA
and RA claims accrued.

7

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 8 of 20

Here, for statute of limitations purposes, Plaintiff filed his Complaint on August 29,2018.5
So if his claim accrued any time before August 29,2016—and the Court can determine the accrual
date from the face of the Complaint, any exhibits attached to the Complaint, or matters of public
record—then the Court should dismiss Plaintiffs claims. Plaintiffs Complaint is nineteen (19)
pages long with another forty-four (44) pages of exhibits attached. (ECF No. 1.) These sixty-three
(63) pages of filings, as well as matters of public record, comprise the sources of information that
the Court can rely on when deciding Defendants’ Motion to Dismiss.
A thorough review of the Complaint, exhibits, and public record—liberally read in light of
Plaintiffs pro se status—reveal seven (7) incidents that Plaintiff alleges violated Title II of the
ADA and § 504 of the RA. For all but one (1) of these events, the Court can simply assume for the
sake of argument that Plaintiffs allegations show a prima facie case under the ADA and RA. The
incident-by-incident review of the allegations raised in Plaintiffs Complaint, conducted below,
leads the Court to conclude that all of Plaintiff s arguably viable claims accrued before August 29,
2016. So they are all barred by the statute of limitations. And the one (1) asserted claim not facially
time-barred fails to plausibly state a claim for relief, and cannot be invigorated by amendment.
Of the seven (7) incidents referenced in the Complaint that Plaintiff alleges violated the
ADA and RA, the two (2) earliest occurred in February 2014—both relate to the same Order issued
in the Family Court litigation. (ECF 12, at 7-8.) First, Plaintiff alleges that Judge Bubash issued
an Order that prevented him from “seeing or communicating with his children since February 4,

5 Under Third Circuit precedent, for statute of limitations purposes, the date when a plaintiff filed his or her motion to
proceed in forma pauperis is the date when the Court considers a plaintiffs complaint filed. See, e.g., McDowell v.
Del. State Police, 88 F.3d 188, 191—92 (3d Cir. 1996). Here, Plaintiff moved to proceed in forma pauperis on August
29,2018. (ECF No. 1.) Plaintiff s Complaint appeared on the docket on March 11,2019. (Compl., ECF No. 12.) But
because the Court eventually granted Plaintiffs Motion to Proceed in forma pauperis, the Court will use the date of
that motion—August 29,2018—as the date when the Complaint was filed for statute of limitations purposes. Doing
so is not only correct under Third Circuit law, but also fair to Plaintiff because it does not push up the Statute of
limitations date simply because Plaintiff required in forma pauperis status to proceed.

8

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 9 of 20

2014.” (Id.) Though Plaintiff lists the date of Judge Bubash’s Order as February 4, the Court is
confident, after many detailed readings of the Complaint and exhibits, that Plaintiffs reference
here is to Judge Bubash’s Order issued February 5, 2014. Second, elsewhere in the Complaint,
Plaintiff asserts that this same February 5 Order denied him the use of his father as his facilitator
during the Family Court proceedings. (Id. at 11—12.)
Assuming for the sake of argument that Plaintiffs allegations about Judge Bubash’s
Order—both about Plaintiffs ability to see his children and his use of his father as a facilitator-—
state a prima facie violation of the ADA and RA, the Court will undertake the two-step statute of
limitations analysis set out in Disabled in Action. The first step is to identify the date of the injury.
Here, that is February 5, 2014—the date Judge Bubash issued the Order. Next the Court must
determine when Plaintiff discovered, or when it would have been reasonable for him to discover,
the injury. Here, Plaintiff discovered the injury by March 17, 2016, at the very latest. Two (2) of
the exhibits Plaintiff attached to his Complaint reference Judge Bubash’s February 5,2014, Order.
(ECF Nos. 12-5, at 10—11; 12-6, at 6-7.) In ECF No. 12-5, which is a Motion for Judge Bubash’s
Recusal that Plaintiff signed and dated March 17, 2016, Plaintiff reasonably raised the same
allegations as those in his Complaint. (ECF No. 12-5, at 10-11.) Chief among them are that Judge
Bubash’s Order allegedly denied him the use of his father as his facilitator and interfered with his
ability to see his children.6 (Id.) Because ECF No. 12-5 is an exhibit that Plaintiff attached to his
Complaint, the Court may reference it when deciding Defendants’ Motion to Dismiss. See Schmidt,
770 F.3d at 249 (citing Pension Benefit Guar. Corp., 998 F.2d at 1196). As a result, Plaintiffs
6 ECF No. 12-6 is another exhibit that Plaintiff attached to his Complaint. That exhibit is a complaint Plaintiff filed
with the Judicial Conduct Board on March 27,2016. The allegations in his complaint with the Judicial Conduct Board
largely mirror those included in his Complaint here—i.e., that Judge Bubash’s Order prevented him from seeing his
children and using his father as a facilitator. (ECF No. 12, at 7, 11-12; 12-6, at 6-7.) The exhibit at ECF No. 12-6,
then, independently confirms that the accrual date for Plaintiffs claims related to Judge Bubash’s February 5,2014,
Order occurred before August 29,2016.

9

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 10 of 20

allegations related to Judge Bubash’s February 5, 2014, Order accrued by at least March 17,
2016—more than two (2) years before he filed his Complaint here.
The third incident that Plaintiff alleges violated his rights under the ADA and RA occurred
on March 29, 2016. That is when Plaintiff moved to recuse Judge Bubash from the Family Court
proceedings.7 (ECF No. 12, at 7,10—11.) Plaintiff alleges that Judge Bubash “declared that Motion
was an ADA complaint” and “scrubbed [it from] the docket.” (Id. at 10-11.) Plaintiffs Complaint
and exhibits show that Judge Bubash either explicitly or implicitly denied Plaintiffs Motion to
Recuse on March 29,2016—the date when Plaintiff presented the Motion to Recuse to the Family
Court.8 {Id.; ECF Nos. 12-7, at 3-4; 12-8, at 2.)
Assuming for the sake of argument that Judge Bubash’s denial of Plaintiff’s Motion to
Recuse states a prima facie violation under the ADA or RA or both, the Court will apply the twostep “discovery rule” inquiry. In this instance, the injury occurred on March 26, 2016—the date
Judge Bubash, in some shape or form, denied Plaintiffs Motion to Recuse. (ECF Nos. 12-7, at 34; 12-8, at 2.) And Plaintiffs claim accrued no later than July 26,2016—when Plaintiff referenced
Judge Bubash’s denial of the recusal motion in a complaint he filed with the Judicial Conduct
Board. (ECF No. 12-8, at 1-2.) By referencing Judge Bubash’s denial of the motion in his own

7 Again, Plaintiffs Complaint contains an error when he alleges the date when he filed the Motion to Recuse Judge
Bubash. In his Complaint, Plaintiff alleges that he filed the Motion to Recuse on March 29,2014. But he then cites to
the Motion to Recuse, which was attached to the Complaint as an exhibit. (ECF Nos. 12, at 11; 12-5, at 3.) That exhibit
shows that Plaintiff filed the Motion to Recuse on March 29, 2016, not in 2014 as he erroneously states in his
Complaint. Other exhibits to the Complaint similarly lead the Court to conclude that Plaintiff filed the Motion to
Recuse in 2016, not 2014. (ECF Nos. 12-7, at 3-4; 12-8, at 2.)
8 The exhibits attached to Plaintiffs Complaint lead the Court to conclude that Judge Bubash denied Plaintiffs motion
on March 29,2016—the same day that he presented the Motion in Family Court. (ECF Nos. 12-7, at 3-4; 12-8, at 2.)
The Motion to Recuse, which is itself attached to the Complaint, includes a certificate of service that Plaintiff signed
on March 17,2019. (ECF No. 12-5, at 3.) The Motion lists March 29,2016, as the date for the hearing during which
Plaintiff would present his recusal motion to the Family Court. (Id.) Plaintiffs other exhibits to his Complaint—
particularly ECF Nos. 12-7 and 12-8—align with the conclusion that Judge Bubash denied the recusal motion on
March 29,2016. (ECF Nos. 12-7, at 3—4; 12-8, at 2.)

10

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 11 of 20

letter to the Judicial Conduct Board on July 26,2016, Plaintiff demonstrated actual knowledge of
his alleged injury.9 (Id.) Because the accrual date arose more than two (2) years before he filed his
Complaint here, Plaintiffs claims are time-barred.
The fourth incident that Plaintiff alleges violated his ADA and RA rights occurred on April
18, 2016, when Judge Bubash again refused to permit Plaintiffs father to act as his facilitator
during both the Family Court proceedings and Plaintiffs supervised visits with his children. (ECF
No. 12, at 12—13.) Plaintiff states that Judge Bubash’s allegedly harmful conduct occurred on the
record during a hearing in Family Court. (Id. at 13.) Although this alleged injury appears simply
to reassert the same injury Plaintiff alleges arose out of Judge Bubash’s Order issued February 5,
2014, the Court will analyze it as a distinct injury alleged under the ADA and RA.
The first step of the Court’s “discovery rule” inquiry is simple: Plaintiffs alleged injury
occurred on April 18, 2016, when Judge Bubash renewed her denial of Plaintiffs use of his father
as a facilitator during the Family Court proceedings and visits with his children. (ECF Nos. 12, at
13; 12-7, at 1-4.) As for when Plaintiff discovered, or reasonably should have discovered this
injury, the Court concludes that the injury accrued no later than May 10,2016. In his “Addendum
to Complaint of March 27, 2016"—a letter sent to the Judicial Conduct Board, attached to his
Complaint here at ECF No. 12-7—Plaintiff raised the same allegations that he brings here over
Judge Bubash’s renewed denial of his facilitator request.10 Plaintiff mailed the document attached

9 Plaintiff also referenced Judge Bubash’s denial of his recusal motion in the exhibit attached at ECF No. 12-7. The
attachment at ECF No. 12-7, however, does not list a date when Plaintiff created the document. ECF No. 12-7, does
however, have a title: “Addendum to Complaint of March 27,2016, by Daniel Hefley.” (ECF No. 12-7, at 1.) And in
ECF No. 12-8, Plaintiff identifies the date when he filed the “Addendum” attached at ECF No. 12-7, as May 10,2016.
(ECF No. 12-8, at 1 (“Please include this for the record with the Complaint filed on March 27,2016 and its companion
Addendum filed May 10,2016.”).)
10 The “Complaint” referenced in the document entitled “Addendum to Complaint of March 27,2016” is the complaint
that Plaintiff filed with the Judicial Conduct Board about Judge Bubash. That, of course, is a different complaint than
the one that commenced the action currently before the Court.

11

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 12 of 20

at ECF No. 12-7, to the Judicial Conduct Board on May 10, 2016. (ECF No. 12-8, at 1.) There is
no doubt, then, that by May 10, 2016, at the very latest, Plaintiff knew of the alleged injury that
occurred during the hearing on April 18, 2016.n
The fifth incident that Plaintiff alleges constitutes an ADA and RA violation was when
Judge Bubash appointed a guardian ad litem and counsel for him on April 19,2016. (ECF No. 12,
at 14.) In Plaintiffs Complaint here, he frames this injury as one to his “right to self­
representation.” (Id) He does not specifically mention the ADA or RA when discussing Judge
Bubash’s appointment of counsel and guardian ad litem. (Id.) But in fairness because Plaintiff is a
pro se litigant, the Court will treat these allegations as invoking the ADA and RA.
As for when Plaintiffs fifth alleged injury occurred, assuming that Plaintiffs allegations
have merit, the injury date was April 19, 2016—the date when Judge Bubash issued her Order
appointing counsel and the guardian ad litem.12 (ECF No. 21-2.) As for when Plaintiff discovered
the injury, the Court concludes that Plaintiff knew of the guardian ad litem and counsel’s
appointment by May 10,2016, at the latest. (ECF No. 12-7, at 3.) In the May 10,2016, addendum
to his Judicial Conduct Board complaint, attached to his Complaint in this case at ECF No. 12-7,
Plaintiff raises essentially the same arguments about Judge Bubash that be alleges here. (ECF Nos.
12, at 14; 12-7, at 2-4.) Moreover, both his Complaint in this case and the May 10, 2016, letter

11 In the Court’s estimation, the accrual date could be set at April 18, 2016—the date of the hearing itself. Because
Plaintiffs allegations in the Complaint and attachments make clear that he personally attended the April 18 hearing,
he would have discovered—or it would have been reasonable for him to have discovered—the injury on the same date
that it occurred. Because there is indisputable evidence, provided by Plaintiffs own exhibits to his Complaint, that
Plaintiff knew of the injury by May 10, 2016 (ECF No. 12-8, at 1), the Court will use that as the accrual date for the
second step outlined in Disabled in Action. The Court will take this safer approach even though it would be fair to
conclude that the injury and discovery occurred at the same time.
12 Although a copy of Judge Bubash’s Order appointing counsel and the guardian ad litem is not attached to Plaintiffs
Complaint, one is attached to Defendants’ Brief in Support of their Motion to Dismiss. (ECF No 21-2.) Because the
Order is a matter of public record, the Court can consider it when deciding Plaintiffs Motion to Dismiss under to the
“Third Circuit Rule.” See Schmidt, 770 F.3d at 249 (citing Pension Benefit Guar. Corp., 998 F.2d at 1196).

12

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 13 of 20

attached to it make clear that Plaintiff knew Judge Bubash appointed counsel and a guardian ad
litem almost immediately after their appointment. Such a conclusion is the only logical one because
the substance of Plaintiff s allegations—that the guardian ad litem and appointed counsel
interfered with the use of his father as a facilitator during the Family Court proceedings—only
makes sense if those individuals appeared beside Plaintiff during the proceedings instead of his
father. As a result, under the “discovery rule,” Plaintiff knew of Judge Bubash’s Appointment
Order by May 10, 2016—as evidenced by ECF No. 12-7, which Plaintiff attached to this
Complaint. That means that his claims about the appointed guardian ad litem and counsel accrued
before August 29,2016, and are therefore barred by the statute of limitations.
The sixth incident that Plaintiff alleges constitutes an ADA and RA violation relates to a
civil rights complaint filed with the United States Department of Justice (“DOJ”). (ECF No. 12, at
7,12-13.) In his Complaint, Plaintiff alleges that Judge Bubash submitted “a formal complaint to
the Civil Rights Division of the Department of Justice in plaintiffs name.” (Id. at 12.) Judge
Bubash’s alleged objective, according to Plaintiff, was to “diminish[] the plaintiff and deflate[] the
protections defined in Title II [of the ADA]” by filing the “fraudulent” complaint with DOJ. (Id.)
This is one of Plaintiffs stranger allegations.13 Still, the Court will examine it under the Third
Circuit’s framework.14

13 Judges typically do not conspire against the litigants before them. So Plaintiffs allegation that Judge Bubash filed
a fraudulent DOJ Civil Rights complaint in his name to undermine him during the Family Court litigation catches the
eye. The problem is that Plaintiff does not explain why Judge Bubash would conspire against him. Nor does he give
any support for his belief that Judge Bubash would take such a drastic, ethically dubious step. That sort of serious
allegation needs more oomph behind it than Plaintiffs Complaint offers.
14 On a Motion to Dismiss, the general rule is that the Court must accept the allegations in the Complaint as true. In
the Court’s estimation, the “plausibility” threshold set forth in Twombly and Iqbal operates to dismiss implausible and
unsupported claims like the one Plaintiff lodges against Judge Bubash over the alleged fraudulent DOJ Civil Rights
complaint. Because the Court ultimately concludes that this allegation is barred by the statute of limitations, it will
refrain from reaching a final determination on whether Plaintiffs claim meets the “plausibility” requirement set forth
in binding Supreme Court and Third Circuit case law.

13

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 14 of 20

Under that framework, Plaintiffs DOJ civil rights complaint-related claim is barred by the
statute of limitations. In an exhibit attached to his Complaint here, Plaintiff provided a letter he
received from DOJ. (ECF No. 12-8, at 3.) That letter is stamped June 17, 2016, and explains that
DOJ would not be taking any further action on the complaint they received in Plaintiffs name.
(Id.) To set the injury date, under the two-step Disabled in Action framework, the Court concludes
that Plaintiff was injured on June 17,2016—the date that DOJ sent the letter declining to take any
action against Judge Bubash. (Id.) As for when Plaintiff “discovered” that injury, the same exhibit
attached to his Complaint provides the answer. In ECF No. 12-8, Plaintiff also includes a letter he
sent to DOJ asking about the source of the allegedly fraudulent civil rights complaint. (Id. at 4.)
Plaintiff signed that letter and dated it June 22,2016. So Plaintiff knew of the injury caused by the
allegedly fraudulent DOJ complaint by June 22, 2016, at the latest. Because the accrual date is
earlier than August 29, 2016, Plaintiffs claim related to the allegedly fraudulent DOJ complaint
is barred by the two-year statute of limitations.
The seventh, and final, incident that Plaintiffs Complaint alleges violated his ADA and
RA rights is the Judicial Conduct Board’s decision not to reprimand Judge Bubash following
Plaintiffs complaint filed with that entity. (ECF No. 12, at 7-8.) As proof of the alleged ADA and
RA violation, Plaintiff attached a letter from the Judicial Conduct Board to his Complaint here.
(ECF No. 12-9.) Because this letter is dated February 14, 2018, if the allegations that Plaintiff
raises against the Judicial Conduct Board state aprima facie ADA or RA violation, they would not
be barred by the statute of limitations. This claim, unlike all those that preceded it, requires that
the Court determine whether the Judicial Conduct Board’s refusal to sanction Judge Bubash states
a claim for which relief can be granted. The Court concludes that Plaintiffs allegations involving

14

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 15 of 20

the Judicial Conduct Board’s decision does not by itself, or in combination with any of the other
allegations, state a claim under either the ADA or RA.
For starters, the Judicial Conduct Board exists to investigate alleged judicial misconduct
and enforce the ethics rules governing judges in Pennsylvania. See generally Pa. Const, art. 5, § 18.
It is not, as Plaintiffs Complaint would make it seem, an appellate body capable of reversing
orders issued by a Commonwealth judge. As defined in the Pennsylvania Constitution, the Judicial
Conduct Board’s power is limited to disciplining judges for ethics violations, and even then, only
after a highly structured adjudicatory process. Id.
Plaintiff grounds his allegations against the Judicial Conduct Board in the idea that it is
“responsible for the training and oversight of [the] judiciary.” That broad statement is simply not
the case. The Judicial Conduct Board had at the time of Plaintiffs complaint, and has now, no
broad-brush power to tell Judge Bubash how to run her courtroom. So its decision not to prosecute
Plaintiffs misconduct complaint does not implicate Plaintiffs ADA and RA rights. Accord Linda
R.S. v. Richard D., 410 U.S. 614. 619 (1973) (“A private citizen lacks a judicially cognizable
interest in the prosecution or nonprosecution of another.”). Even if this Court assumes that
Plaintiffs other claims involving Judge Bubash’s decisions implicate the ADA and RA, the
Judicial Conduct Board could do nothing to vacate Judge Bubash’s orders that Plaintiff takes issue
with. Thus the Judicial Conduct Board’s decision not to discipline Judge Bubash under
Pennsylvania judicial ethics rules is unconnected to whether Plaintiff suffered an ADA and RA
violation during the Family Court proceedings. Plaintiffs allegations about the Judicial Conduct
Board fail to state a claim under the ADA and RA, and similarly fail to bring Plaintiffs other
allegations within the limitations period.

15

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 16 of 20

Typically , when a plaintiff does not seek leave to amend a deficient complaint in the face
of a motion to dismiss, the Court must inform the plaintiff of the option to amend and correct. See
Grayson v. Mayview State Hosp., 293 F.3d 103,108 (3d Cir. 2002). But when any effort to amend
the complaint would be futile, the Court may dismiss the complaint with prejudice without
providing an opportunity for the plaintiff to amend. See id Here, Plaintiff’s allegations that the
Judicial Conduct Board violated his ADA and RA rights have no legal merit. And no amendment
could fix this deficiency. Thus, his claim against the Judicial Conduct Board, like all of his other
claims, will be dismissed with prejudice.
B. Continuing Violations Doctrine
In his response to Defendants’ Motion to Dismiss, Plaintiff raises what the Court might
consider a ‘‘continuing violations” argument. That doctrine allows a court to equitably toll the
applicable statute of limitations when the defendant’s conduct is part of a continuing practice and
the most recent act falls within limitations period. See Cowell v. Palmer Twp., 263 F.3d 286, 292
(3d Cir. 2001); see also Nat'l R.R. Passenger Corp. v. Morgan, 536 U.S. 101, 107 (2002)
(discussing continuing violations in the context of Title VII claims). But the doctrine only comes
into play when the defendant’s conduct becomes cognizable over a period of time, rather than as
a result of discrete incidents. See Cowell, 263 F.3d at 292; see also Foster v. Morris, 208 F. App’x
174,177-78 (3d Cir. 2006) (unpublished decision addressing continuing violations doctrine in the
context of ADA claims). The relative narrowness of the doctrine means that “time-barred claims
cannot be resurrected by being aggregated and labeled continuing violations.” O 'Connor v. City
of Newark, 440 F.3d 125, 129 (3d Cir. 2006). As the Tenth Circuit recently put it, in the context
of an ADA claim, “the continuing violation doctrine ... is triggered by continual unlawful acts,
not by continual ill effects from the original violation.” Hamer v. City of Trinidad, 924 F.3d 1093,

16

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 17 of 20

1099 (10th Cir. 2019) (internal quotation marks omitted) (citing Mata v. Anderson, 635 F.3d 1250,
1253 (10th Cir. 2011)).
The continuing violations doctrine applies when the plaintiffs claim, as a whole, cannot
be said to have occurred on one particular day. See Morgan, 536 U.S. at 122; Mandel v. M & Q
Packaging Corp,, 706 F.3d 157,165-66 (3d Cir. 2013). The quintessential example is a Title VII
hostile work environment claim, which comprises a pattern of behavior that gives rise to a claim
even though no single incidence of hostility would support a claim by itself. See Mandel, 706 F.3d
at 165-67. To determine if conduct constitutes a continuing violation, two (2) factors are of
especial importance. First, whether the violations were part of the same subject matter. Second,
whether those violations frequently occurred. See id.; see also Cibula v. Fox, 570 F. App’x 129,
135-36 (3d Cir. 2014) (summarizing the Third Circuit’s current factors for whether a practice is
“continual”). In the context of the ADA, the Third Circuit concluded in a pair of unpublished
opinions that a reasonable accommodation request is a one-time event—meaning that the denial
of an accommodation cannot constitute a continuing violation. See Mercer v. SEPTA, 608 F. App’x
60, 62-64 (3d Cir. 2015); Aubrey v. City of Bethlehem, 466 F. App’x 88, 92-93 (3d Cir. 2012).
Though those holdings are not binding, the Court adopts the reasoning in those decisions. It makes
good sense that, in these circumstances, the denial of a reasonable accommodation is not a
continuing violation because at the time of the asserted denial, Plaintiff has a claim under the ADA
and knows it (or at least reasonably should know it).
Here, Plaintiff tries to invoke the continuing violations doctrine for the exact opposite of
its intended purpose. In his filings, Plaintiff states that “the statute of limitation has not expired as
the transgression of the state court is daily and hourly renewed. The transgression is a constant in
the plaintiffs life.” (ECF No. 22, at 21.) But that is an argument that the ill effects of the alleged

17

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 18 of 20

ADA and RA violations are ongoing, not that new unlawful acts occurred. If Plaintiffs argument
were the law, then it would nearly always be possible for litigants to skirt around the statute of
limitations simply by saying they are still hurt by an earlier unlawful act. That is not the law in this
Circuit, and it is not the law this Court will apply.
Neither of the factors outlined by the Third Circuit in Mandel support Plaintiffs continuing
violations argument. See Mandel, 706 F.3d at 165—67. The first factor is whether the alleged ADAand RA violations were part of the same subject matter. At a high level of generality, all of
Plaintiffs allegations relate to his Family Court proceedings. But the inquiry must be more
granular than that, otherwise two events with only the most tenuous connection could create a
continuing violation. Here, Plaintiffs alleged ADA and RA injuries all stem from distinct events.
For instance, the first two injuries that Plaintiff alleges relate to Judge Bubash’s February 2014
Order. But one of those alleged harms is that he could not communicate with his children, while
the other alleged harm is that his father could not act as his facilitator. In the Court’s estimation,
those injuries are not part of the same subject matter, even if they stem from the same order.
Even if the Court drew a connection between the two injuries Plaintiff alleges resulted from
the February 2014 Order, the remaining injuries he alleges are unconnected to those two. Plaintiffs
alleged harm from being appointed a guardian ad litem and counsel is distinct from his alleged
harm from someone purportedly filing a DOJ civil rights complaint On his behalf. And the DOJ
civil rights complaint is of a different subject matter than his allegations related to the Judicial
Conduct Board. The bottom line is that although Plaintiffs many alleged injuries all somewhat
relate to his Family Court experiences, each alleged injury is distinct—meaning that the first factor
outline in Mandel counsels against the Court concluding that Plaintiff suffered a continuing
violation of his ADA and RA rights.

18

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 19 of 20

The second Mandel factor—the frequency of the harm—also counsels against finding a
continuing violation. See id. Plaintiff s allegations relate to events occurring between February
2014 and March 2016. And each alleged harm resulted from a distinct event—either a Family
Court order or hearing. The events that support Plaintiffs alleged injuries, on the short end, are
separated by weeks, and on the longer end, by years. That can hardly be said to be frequent. The
Court, therefore, concludes that the second Mandel factor similarly counsels against identifying a
continuing violation in Plaintiffs Complaint.
Finally, Mandel and other Third Circuit case law make clear that even if Plaintiff met both
factors outlined above, he still must identify at least one act that falls within the statute of
limitations. See, e.g., id. As the Court already concluded, after an exhaustive allegation-by­
allegation review of Plaintiff s Complaint, none of the allegations that could even arguably state
an ADA or RA claim occurred on or after August 29, 2016. Plaintiff, therefore, fails the most
important element of the continuing violation test: the unlawful acts must continue into the
limitations period. He undoubtedly alleges that he still feels the harm of his alleged ADA and RA
violations. But he does not allege ongoing unlawful acts. His claims, consequently, are barred by
the two-year statute of limitations imposed on claims under Title II of the ADA and § 504 of the
RA.
IV.

CONCLUSION
The Court understands, and is sympathetic to, the complexity of litigating in federal court.

That complexity is often exacerbated when a litigant proceeds pro se. But no matter if a trained
lawyer or pro se party is at the wheel, the statute of limitations applies. Here, Plaintiff knew of his
alleged ADA and RA injuries, yet waited more than two (2) years to file his Complaint. Defendants
moved to dismiss that Complaint on statute of limitations grounds. The Court agrees that Plaintiffs

19

Case 2:18-cv-01150-MRH Document 32 Filed 01/09/20 Page 20 of 20

ADA and RA claims are barred by the statute of limitations, and therefore all claims arising out of
conduct that occurred before August 29, 2016, must be dismissed with prejudice. Plaintiffs only
purported claim that falls within the statute of limitations period—his claim against the Judicial
Conduct Board—fails to state a claim, and the Court concludes that leave to amend this baseless
allegation would be futile. Because all of Plaintiffs viable claims occurred more than two (2) years
before he filed his Complaint with this Court, his Complaint is dismissed in its entirety with
prejudice.

Mark R. Homak
Chief United States District Judge

Dated:
cc:

^ t 2.02.0
All counsel of record via ECF
Plaintiff via ECF

20

Case 2:18-cv-01150-MRH Document 33 Filed 01/09/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR-THE-WESTERNDISTRIGT-OF-PENNSYLVANIA
DANIEL J. HEFFLEY,
Plaintiff,
v,
COMMONWEALTH OF
PENNSYLVANIA; SUPREME
COURT OF PENNSYLVANIA;
JUDICIAL CONDUCT BOARD
OF PENNSYLVANIA; and
COURT OF COMMON PLEAS
OF ALLEGHENY COUNTY
Defendants.

)
)
)
)
)
)

)

2:18-cv-01150

)
)
)
)
)
)
)
)

ORDER
AND NOW, this 9th day of January 2020, for the reasons stated in the Court’s Opinion of
this day, it is hereby ORDERED that Defendants’ Motion to Dismiss (ECF No. 20), is
GRANTED. Plaintiff s Complaint (ECF No. 12), is DISMISSED WITH PREJUDICE.

Mark R. Homak
Chief United States District Judge
cc:

All counsel of record via ECF
Plaintiff via ECF

V

\

Case: 20-1804

Document: 23

Page: 1

Date Filed: 03/11/2021

UNITED STATES COURT OF APPEALS
-------- FOR-THE-THIRDGIRCUIT-------No. 20-1804
DANIEL J. HEFFLEY,
Appellant
v.

COMMONWEALTH OF PENNSYLVANIA; SUPREME COURT OF
PENNSYLVANIA; JUDICIAL CONDUCT BOARD OF PENNSYLVANIA;
COURT OF COMMON PLEAS OF ALLEGHENY COUNTY
On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil Action No. 2:18-cv-01150)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

Appendix C

Case: 20-1804

Document: 23

Page: 2

Date Filed: 03/11/2021

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

BY THE COURT,

s/ Theodore McKee
Circuit Judge
Date:
MB/cc:

March 11,2021
Daniel J. Heffley
Megan L. Davis, Esq.

Case 2:18-cv-01150-MRH Document 18 Filed 08/19/19 Page 1 of 8
i

United States District Court

2

for the

3

Western Di strictof Pennsylvania
Case No: 18 -1150
Daniel J. Heffley

Complaint for Violations

(Pro se)

Of

6911 Perrysville Ave.
Pittsburgh, PA 15202

Title II of the ADA
And

Plaintiff
V.

The Commonwealth of Penna.
(new address here)
Governor's Office of General Counsel
333 Market Street
17th Floor
Harrisburg, PA 17101

Sec. 504 of the Rehabilitation Act
And The
Resulting Loss
of

Parental Rights and Civil Rights as defined in the
First, Fifth, Ninth and Fourteenth Amendments
JURY TRIAL
DEMANDED

The Supreme Court of Penna.
601 Commonwealth Ave
#4500
Harrisburg, PA 17120

Filed
Clerk U.S. District Court
West. Dist. Of Pennsylvania

The Judicial Conduct Board of Penna.
601 Commonwealth Ave.
Suite 3500
P.O. Box 62525
Harrisburg, PA 17120

Memorandum
8/19/2019

The Court of Common Pleas of
Allegheny County (Pittsburgh)
414 Grant St.
Pittsburgh, PA 15219

1. Advising Court of Delay
and
2. Request for Appointment of Counsel

Defendants

t

4

Appendix D

>lof5

Case 2:18-cv-01150-MRH
5

Document 18 Filed 08/19/19

Page 2 of 8

Advising Court of Delay

6
J-

1.

8
9
10

The initial filing in case 17-1624 (Heffley v. Steele) included the following:
•
•
•

11

2.

The Court of Common Pleas
The Honorable Catherine Bubash a judge in the Family Court
Lisa Herbert, Esq. ADA Administer in the Court of Common Pleas

Subsequent to that filing the Plaintiff removed the above from the suit when

12

the court dismissed the suit against the state court judge with prejudice citing the Doctrine

13

of Judicial Immunity.

14
15
16

3.

The Plaintiff then filed a separate action opposed to Judge Bubash (18-

4.

That complaint was dismissed by this court and the plaintiff appealed the

00098)

17

Western Districts dismissal to the 3rd Circuit. (Case Number 18-1398) The 3rd Circuit agreed

18

with this court in effect stating that although the state court judge committed perjury she

19

did so "on-behalf" of the plaintiff.

20

5.

The plaintiff reasoned that if the state judge was not responsible;those who

21

are responsible for the judge's performance and training are also accountable for the

22

judges malfeasance. That is the rationale supporting this suit.

23

6.

In and effort to define accountability the plaintiff filed a complaint naming

24

the Commonwealth of Penna. et al with the intention to make it part of the complaint at

25

17-1624. That submission to marry those newly named defendants to Heffley v. Steele 17-

26
27

1624 was ECF No 41 dated August 29, 2018.
7.
On June 17, 20^9ln)jeffley v. Steele 17-1624 at ECF N. 86 the Plaintiff was

28

made aware that the suit opposed to the Commonwealth of Penna. would not be married

29

to the existing suit as requested in ECF 41.

30
31
32

8.

Instead the complaint against Penna. was given its own identifying

designation as Heffley v. Commonwealth of Penna. 18-1150 (see ECF No. 8)
9.

Denied inclusion into 17-1624 and this case was designated 18-1150. This

33

alerted the Plaintiff and he immediately began the notification process of the defendants in

34

this case. The notification process did not commence until June 20,2019.

35
36

10.

In doing so (in a panic/rush) the Plaintiff mislabeled one of the documents

sent to the state. Exhibit A (see also ECF 15)
Page 2 of 5

Case 2:18-cv-01150-MRH
37
38

11.

Document 18

Filed 08/19/19 Page 3 of 8

Actually, the plaintiff sent the wrong titles to the wrong addresses and the

Commonwealth returned the complaint for correction.

39

12.

The plaintiff resubmitted the correct packet to the Commonwealth.

40

13.

However, the correction did not go far enough as the plaintiff FAILED to

41

correct the "To:" line which should read Commonwealth of Penna and not Court of

42

Common Pleas; (see Exhibit B)

43

14.

I am returning the entire package to the state and I am confident that they

44

will notify the court of their appearance within the new time frame. The new deadline

45

being September 19, 2019.

46

15.

The above 500 words is arduous for both the reader and the writer. Very

47

confusing for the layman and inspires a greater appreciation for the detailed work

48

executed in law. There are at the least 10 balls in the air and the plaintiff is a novice at

49

juggling. But the plaintiff is getting good at picking blunders up off the floor.

50

Appointment of Counsel (In this case 18-1150 Heffley V. the Commonwealth)

51
52

16.

In case 17-1624 Heffley v. Steele, the following considerations were

presented to the court:

53

1)

The Plaintiff is In Forma Pauperis

54

2)

The Plaintiff is Pro Se

55

3)

The Plaintiff is Disabled

56

17.

Numbers 1 and 2 are of less consideration than number 3 above.

57

18.

The plaintiff is afflicted with oral apraxia and both receptive and expressive

58

aphasia. These are neurological disorders resulting from the insult to the plaintiff's brain.

59
60

19.

(Broca & Wernicke) Exhibit C

61
62

A stroke eliminated the left hemisphere which house both speech centers.

20.

As such the plaintiff, standing alone, not only has trouble speaking but also

has trouble bringing ideas together in an orderly, comprehensive and cohesive manner.

63

21.

Here I will invite opposing counsel to visit this case's first cousin 17-1624 and

64

view ECF No. 29 and 103. The plaintiff does not think it necessary to include it here as it

65

exists in its entirety over in Heffley v. Steele 17-1624 and the court has already received

66

them.
Page 3 of 5

Case 2:18-cv-01150-MRH Document 18 Filed 08/19/19 Page 4 of 8
67

22.

If the plaintiff was visually impaired, the court would be required by the

68

Rehabilitation Act (ADA) *• to provide a reader and a number of other considerations such

69

as issuing documents in braiHe-and-providtng-a-reader,-T-hese4hings-wouJfi_acrnmmnHatp a

70

pro se visually impaired plaintiff.

71

23.

At issue is defining what is appropriate accommodations under the

72

guidelines and consideration suggested by the ADA and/or section 504 of the

73

Rehabilitation Act.

74

24.

75

76
77
78
79
80
81
82
83
84
85

At the risk of offending and annoying the court the plaintiff will invite the

court to revisit that case (17-1624) (Heffley v. Steele) and consider the following:

■

5/25/2018 ECF 30
•
•
•

■

3/18/2019 EFC 36
•

Reiterated the request ECF No. 30

■

4/12/2019 ECF 39

■

4/16/2019 ECF 41 Ln. 53

•

86

•

87

Again requested the Appointment of Counsel
28 U.S.C 1915(d) provides that "THE COURT MAY REQUEST AN
ATTORNEY TO REPRESENT ANY SUCH PERSON UNABLE TO
EMPLOY COUNSEL.

88

89
90
91
92
93
94
95
96
97
98
99
100
101
102
103
104
105
106

Requested an Advisory or Standby Counsel
Requested guidance from outside the court's perimeters
In the alternative a member of the clerk's office to provide
procedural guidance

■

5/8/2019 ECF 71

■

5/8/2019 ECF 72 Ln. 534

•
•

■

Reiterated request for Advisory Counsel

5/26/2019 ECF 78
•
•

■

Reiterated request for Advisory Counsel

Reiterated request for Advisory Counsel
Directed courts attention to a report advocating Advisory
Counsel Ln. 102 - Ln. 345

6/4/2019 ECF 83 Ln.352
•

Noted that efforts to get help have been futile

■

6/19/2019 ECF 88 Ln. 50

■

7/26/2019 ECF 97 Ln. 39

•
•

Requested help via a clerk
Commented on Appointment of Counsel

■

8/2/2019 ECF 102 Ln. 42

■

8/4/2019 ECF 103 Ln 20

•
•

Reiterated request for Advisory Counsel
Reiterated request for Advisory Counsel

Page 4 of 5

Case 2:18-cv-01150-MRH
•

107
108
109
110
111
112
113
114

25.

Document 18

Filed 08/19/19

Page 5 of 8

Suggested that the court consider that along with the
plaintiffs in forma pauperis and pro se designations that the
plaintiff is also disabled and that it is incumbent on the court
to ensurethat'the-plaintiff-s-limitations-ar-e-given-------------- _
consideration

The above represents in large part the Plaintiff's petitions to the court to

appoint counsel. They apply uniformly to this suit number 18-1150.
26.

Thus far the plaintiff has directed his facilitator to execute these pleadings

115

and communications. Numerous errors have been made and none of them would have

116

occurred had the plaintiff been able to receive the smallest of help. However, we have-----

117

arrived at a point where accommodations, as suggested by the Acts, should be provided.

118

That accommodation, at this point in time and blunder, is a lawyer.

119
120
121
122
123

August 19, 2019

1)0^
Daniel J. Heffley
Plaintiff - Pro Se

124

125
126
127
128
129
130

1 It is the plaintiffs understanding that the ADA addresses the State Courts obligations. In contrast the
Rehabilitation Act applies to the Federal Court. However, the plaintiff believes, as a result of research, that
the two acts mirror one another with the ADA essentially being taken from the Rehabilitation Act. The
plaintiff points this out as it represents the plaintiff best effort at sorting these things out. If the plaintiff cites
that the Federal court has an obligation to the ADA and it is actually the Rehabilitation Act the entire issue
may be thrown out. This is a fine point of the law and beyond the plaintiffs understanding.

131
132
133
134
135
136
137
138
139
140
141
142
143
144
145

146

Certificate of Service
I, the undersigned, herby certify that on the 18th day of August 2019, a true and correct
copy of the above has been filed and forwarded to all defendants via the ECF protocol and
on the following party via U.S. Mail:
Christina L Palmer
Governor's Office of General Counsel
333 Market Street 17th Floor
Harrisburg, PA 17101
August 19, 2019
Daniel J. Heffley
Plaintiff-Pro Se
Page 5 of 5

Case 2:18-cv-01150-MRH Document 18 Filed 08/19/19 Page 6 of 8

AO 398 (Rev. 01/09) Notice of a Lawsuit and Request to Waive Service of a Summons

United States District Court
forTfie
------ Western District of Pennsylvania PI

bM- 0-5

Daniel J. Heffley
Plaintiff
v.

150

iWjCmJntyDefendant
O ./LA

l u Cz— C-

Ulw 0f~

T~*i/\- -oh*.

Z/J£

NOTICE OF A LAWSUIT AND REQ
,

To:

______ _

»FA SUMMONS
jrJ w\<AaOjo\ f

0 F-Ata. C-T (ft u

(Name of the defendant or-ifthe defendant is a corporation, partnership, or association - an officer or agent authorized to receive service)

Why are you getting this?
A lawsuit has been filed against you, or the entity you represent, in this court under the number shown above.
A copy of the complaint is attached.
This is not a summons, or an official notice from the court. It is a request that, to avoid expenses, you waive formal
service of a summons by signing and returning the enclosed waiver. To avoid these expenses, you must return the signed
waiver within, 2ft) days (give at least 30 days, or at least 60 days ifthe defendant is outside anyjudicial district ofthe United States)

from ttadafeshown below, which is the date this notice was sent. Two copies of the waiver form are enclosed, along with
astapajied, self-addressed envelope or other prepaid means for returning one copy. You may keep die other copy.
A
/

What happens next?

If you return the signed waiver, I will file it with the court. The action will then proceed as if you had been served
on the date the waiver is filed, but no summons will be served on you and you will have 60 days from the date this notice
is sent (see the date below) to answer the complaint (or 90 days if this notice is sent to you outside any judicial district of
the United States).

l

i

i

If you do not return the signed waiver within the time indicated, I will arrange to have the summons and complaint
served on you. And I will ask the court to require you, or the entity you represent, to pay the expenses of making service.

\

\

A

Please read the enclosed statement about the duty to avoid unnecessary expenses.

\

I certify that this request is being sent to you on the date below.

T>

Date:

1/

Signature oflhe attorney or unrepresented party

Daniel J. Heffley
Printed name
i

i
V.

6911 Perrysville Ave
Pittaburgh, PA 15202
Address

danhefflev@verizon.net
E-mail address

412-761-9939
Telephone number

-r

t

\

V

Case 2:18-cv-01150-MRH Docuijent^ Filed 08/19/19 Page 7 of 8

------ COMMONWEALTH OF PENNSYLVANIA
GOVERNOR’S OFFICE OF GENERATCUONSEC

August 15, 2019
Daniel J. Heffley
6911 Perrysville Avenue
Pittsburgh, PA 15202
RE:

Daniel J. Heffley v. Commonwealth of Pennsylvania,
Supreme Court of Pennsylvania, Judicial Conduct Board of
Pennsylvania and Court of Common Pleas ofAllegheny County,
Docket No. 18-1150 (WD Pal

Mr. Heffley,
I am in receipt of you July 17, 2019 letter enclosing ihc Notice of Lawsuit and Request to
Waive Service of a Summons as well as a Complaint and other documents.
Although you have crossed out The Court of Common Pleas of Allegheny County in the
caption and hand wrote “The Commonwealth of PA, et al.,” the Notice is still addressed to the
"Court of Common Pleas of Allegheny County (Pgh).” As I mentioned in my previous letter, this
office does not have the authority to accept or waive service on behalf of the Court of Common
Pleas of Allegheny County or any of the other named defendants, including the Commonwealth
of Pennsylvania. Therefore, 1 am again returning your letter and enclosures to you.

Sincerely,

Christina L. Palmer
Litigation Coordinator

Enclosures

GOVERNOR’S OFFICE OF GENERAL COUNSEL
333 Market Street, 17th Floor | Harrisburg, PA 17101 | 717.783.6563 | Fax 717.787.1788 | www.ogc.pa.gov

r

mm

nr#

*.

m

&

